APPENDIX
List of Proceedings:
Appendix A— Eastern District of Missouri, Summary Judgment
Memorandum and Order (March 3, 2020)

Doc. #
[81]

Appendix B- Eastern District of Missouri, Relief of Judgment
Memorandum and Order (March 3, 2021)

[105]

Appendix C- Decision of Eighth Circuit Court of Appeals, Summary
Judgment (Nov. 12, 2020) (Opinion Unpublished)
Appendix D — Decision of Eighth Circuit Court of Appeals — Denying
Rehearing (December 18, 2020)
Appendix E - Decision of Eighth Circuit Court of Appeals Denying
consideration to review Supplement Relief of Judgment
(March 19, 2021)
Appendix F - Corporate Disclosure - Defendant’s
Appendix G — Eighth Circuit Court of Appeals - Denying Stay of
Mandate Pending Writ. (January 20, 2021)

Followed by: Addendums [ i - xlvi ]

Case: 4:18-cv-00024-SRC Doc.#: 81 Filed: 03/03/20 Page: 1 of 28 PagelD#: 1840

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
KATHERINE JACOBS,
Plaintiffs),
vs.

JOHNSON STORAGE & MOVING
CO. HOLDINGS, LLC,

)
)
)
)
)
)
)
)
)

Case No. 4:18-cv-00024-SRC

Defendants).
MEMORANDUM AND ORDER
This matter comes before the Court on the [61] Motion for Summary Judgment of
Defendant Johnson Storage & Moving Co. Holdings, LLC and [79] Johnson Storage’s Consent
Motion to Continue Trial. For the reasons set forth below, the Court grants the Motion for
Summary Judgment, and denies the Motion to Continue Trial as moot.
I.

FACTS AND BACKGROUND
This case arises from the events leading up to Plaintiff Katherine Jacobs’s termination

from Johnson Storage, where she worked from March 2017 to August 2017. Jacobs claims that
Johnson Storage terminated her because she would not under-report her working hours to avoid
accruing overtime, and in retaliation for complaining about Johnson Storage's overtime-pay
practices. Johnson Storage maintains that while Jacobs recorded far more overtime hours than
authorized, the company nonetheless paid her for all overtime she recorded and terminated
Jacobs for poor performance. The summary judgment record establishes the following
uncontroverted facts.

1

OCHSES

^ 'yyjp'-'F.

4.

1*32

Case: 4:18-cv-00024-SRC Doc. #: 81 Fiied: 03/03/20 Page: 2 of 28 PagelD #: 1841

A.

Johnson Storage

Johnson Storage is a moving and storage company that handles residential, military,
domestic, and international moving. Johnson Storage’s International Through Government Bill
of Lading (“ITGBL”) department handles international military moves. Throughout her time
working for Johnson Storage, Jacobs’s job title was “ITGBL coordinator/analyst.” In that role,
Jacobs coordinated moves for military members. Johnson Storage hired Jacobs as part of the
team to set up the ITGBL department.
Tina Heaney is the Director of Military Services at Johnson Storage. The ITGBL
department that Heaney oversaw consisted of three employees: Jacobs, Heaney, and Diana
Miller. Jacobs and Miller had die same job title and reported to Heaney.
B.

Jacobs’s Hiring

Jacobs previously worked in the military ITGBL department of another company. At
Johnson Storage, Jacobs worked remotely from home. Johnson Storage offered Jacobs the
position of ITGBL coordinator/analyst earning a base rate of $29 per hour. Jacobs accepted the
offer on February 28, 2017 and began employment two weeks later.
C.

Jacobs’s Knowledge of Johnson Storage’s Policies

On her first day on the job, Jacobs received a copy of the Johnson Storage Employee
Handbook. Jacobs understood that the Employee Handbook set forth the policies that applied to
her employment and that she was an at-will employee. She also understood that Johnson Storage
classified her as a “non-exempt employee” and that Johnson Storage’s policy was to pay her one
and one-half times her regular rate for hours worked over 40 in a week. The “Overtime” Policy
in the handbook expressly provides: “Non-exempt employees may work overtime only with prior

2

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 3 of 28 PagelD #: 1842

approval of their supervisor/manager. Employees working overtime without supervisor approval
may face disciplinary action.” Johnson Storage’s “Time Reporting” Policy provides:
Non-exempt employees must record time worked on a daily basis. Non-exempt
employees must:
i.
clock in, using the company designated time keeping system, at the start of
their shift and when they return to work from lunch.
u.
clock out, using the company designated time keeping system, when they
go to lunch and at the end of their shift.

At the conclusion of each pay period (15th and the last day of the month),
employees must check their timecards for accuracy. When employees forget to
clock in/out for their shift or before/after their meal period, they must notify their
supervisor/manager immediately. Their supervisor will then make the correction
in the time keeping system. Supervisors must make corrections and approve the
time sheets of their non-exempt employees within three business days after the
close of pay period (the 15th and the last day of the month).
Doc. 75 atf 39.
D.

Payment for Recorded Hours

Jacobs recorded her own time by punching in and out through a time-tracking program on
her computer. If Jacobs missed a punch, she would call or email Heaney and tell her what time
should be entered for the missed punch. Jacobs received check stubs during her employment
with Johnson Storage that advised her of her earnings, including the hours and the rate of pay.
Jacobs admits that Johnson Storage paid her for all hours she recorded, and that whenever Jacobs
recorded more than 40 hours in a week, she received overtime pay for those hours.
E.

Johnson Storage’s Overtime Policy for Peak Season

Under Johnson Storage’s policy, no one is authorized to work overtime outside of peak
season, which begins May 15th, about two months after Jacobs began, and ends September 30th.

3

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 4 of 28 PagelD #: 1843

During peak season, Johnson Storage authorized Jacobs and Miller to each work up to 10 hours
of overtime per pay period.
Jacobs testified that Heaney told her overtime needed to be minimal and that Jacobs
would be told when she could log overtime. Jacobs further testified that Heaney told her she
needed “to stop logging in overtime hours.” Other than her first week and a vacation week,
Jacobs recorded overtime every week of her employment. During the 22 weeks Jacobs worked
for Johnson Storage, she recorded 171.71 total hours of overtime, an average of 7.805 hours of
overtime per week. Jacobs recorded more than ten overtime hours in ten of the workweeks,
despite only being authorized to work ten hours of overtime per pay period during peak season.
During the last three full workweeks before her termination, Jacobs recorded an average of 19.39
hours of overtime per workweek. In contrast, Jacobs’s peer, Miller, worked some overtime but
never exceeded the amount of overtime authorized.
F.

Heaney’s Communications to Jacobs about Overtime

Heaney had multiple conversations with Jacobs about the amount of overtime she
recorded. The first occurred after Jacobs received her first or second paycheck. According to
Jacobs, the check reflected a small amount of overtime, and Heaney said to her, “we will tell you
when you can log in overtime hours.” Jacobs testified that, at some point, Heaney told her not to
log in overtime hours and to watch the overtime. When asked if anyone at Johnson Storage told
her to work time and not report it, Jacobs testified she would ask Heaney for help and would
communicate that she could not get the required work done in eight hours and “the only response
was, you need to continue - or you need to stopping logging in the hours.” Jacobs subjectively
understood these conversations to mean she should work hours and not record them. To
Heaney’s knowledge, Johnson Storage paid Jacobs for all of the hours she worked.

4

Case: 4:18-cv-00024-SRC Doc. #: 81 Fiied: 03/03/20 Page: 5 of 28 PagelD #: 1844

On July 6, 2017, Heaney and Jacobs spoke about the hours Jacobs was working.
According to Jacobs, during this call Heaney instructed Jacobs “not to log in [her] overtime
hours.” Jacobs testified that she understood this directive to mean she should keep doing the
work, but not record the time. Jacobs followed up on her July 6,2017 phone call with Heaney
with an email sent the next day. In the email, Jacobs expressed her belief that she could not
complete her job duties without incurring overtime: “If I cut the hours then I will surely start to
see service failures because I won’t be able to respond to the emails in time.” Jacobs continued:
“I guess I’m a little confused about cutting my hours but not having anyone to send the overflow
work to. If I stop the hours, then I’m going to have a mess on my hands.” Finally, Jacobs stated:
“I am seriously not complaining about the volume because I understand it is the season but I
don’t know how to cut the hours and get all of this done. The only other thing I could do is clock
out and continue to do the work but we have already had conversations about that.” Doc. 75 at f
143.
G.

Heaney’s July 11,2017 Email to Human Resources

On July 11, 2017, Heaney sent an email to Johnson Storage’s Human Resources Director,
Marina Manandhar, regarding Jacobs. In the email, Heaney outlined issues she observed in her
interaction with Jacobs, including that Jacobs did not respect her role as supervisor, was defiant
and did not follow direction, did not appear teachable, and rarely answered her phone calls.
Heaney stated: “At this point in time, there is not a failure in job performance in the sense that
there have not been service failures.” Heaney noted that Jacobs’s workload was identical to
Miller’s and that Miller was able to accomplish the job with minimal overtime. Heaney also
noted that less than a week after she communicated to Jacobs that she was not allowed to have
more than ten overtime hours per pay period, Jacobs had already exceeded the limit. Heaney

5

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 6 of 28 PagelD #: 1845

stated: “On July 5th I brought to her attention that her overtime was way out of line and she is
not allowed to have more than 10 hours per pay period. I directed her to evaluate her hours and
work load every Thursday and send me a list of things she will not be able to complete within the
time restriction and I will complete those tasks.” Heaney expressed to Manandhar that she
intended to write up Jacobs for exceeding the overtime limit but also noted that the situation was
“unsustainable” and that she “had already started thinking about how to begin the process of
hiring a replacement.” Doc. 75-7.
H.

Diana Miller’s Complaints about Jacobs

Jacobs’s co-worker and peer, Diana Miller, communicated to Heaney that she was
frustrated that she was the go-to person for agents when Jacobs would fail to respond. Heaney
told Miller that if she wanted her to intervene, she needed specifics; Miller then forwarded to
Heaney multiple emails from agents/vendors demonstrating Jacobs’s failure to respond.
I.

M. Dyer’s Complaint about Jacobs

In early August 2017, a manager for a key business partner of Johnson Storage sent an
unsolicited email to Heaney concerning Jacobs. The business partner, M. Dyer & Sons, was
Johnson Storage’s agent in Hawaii. As agent, M. Dyer handled packing, loading, delivery, and
storage for Johnson Storage as well as working with the ports in Hawaii. Because of the military
installation there, Hawaii played a pivotal role in Johnson Storage’s business. Jacobs
acknowledges M. Dyer’s importance to Johnson Storage.
In her email, the M. Dyer manager told Heaney that Jacobs had acted in a “curt,
unprofessional manner.” She described Jacobs’s “yelling” at her, “barking” at her team, and
“ranting and raving.” She told Heaney: “We will continue to partner with [Jacobs] in a very
professional manner and ask that she afford us the same.”

6

Case: 4:18-cv-00024-SRC Doc.#: 81 Filed: 03/03/20 Page: 7 of 28 PagelD #: 1846

J.

Jacobs’s Termination

On August 17, 2017, Heaney and Manandhar called Jacobs and informed her that
Johnson Storage was terminating her employment. Without Heaney or Manandhar’s knowledge,
Jacobs recorded the telephone call, during which Heaney told Jacobs:
So the first item that — that I want to bring to your attention is that we had a
conversation in early July about overtime and we talked about ten hours of
overtime per pay period and that you were to evaluate your workload and your
hours on Thursday and communicate with me what you weren't able to complete
so that we could evaluate how to -- how to accomplish your job in the amount of
hours that were allowed. And since then, the three pay periods since then, the
first one directly after that you've had 17.13 overtime hours. The following pay
period you had 20.4 overtime hours. And this last pay period you had 37.77 hours
of overtime.
Doc. 75 at f 109. Heaney continued:
And then the next thing on my list is last week we had three complaints from M.
Dyer about your interactions with their staff. The words that they used — I'm
quoting exact words — that you were -- that you yelled at them, that you were
ranting and raving, that you were belligerent and unprofessional. And so I need to
point out that we're in a customer service business and that our partners, our
agents, our members, are all our customers. And in this case, it seems as though
you failed with — with regard to M. Dyer. And then we've received several emails, Diana and I, requesting paperwork or information from more than one
place stating that — that they've had second and third requests to you and not been
responded to. And so with all of — with all of this, I've decided to terminate your
employment as of today.
Id. The same day, Heaney documented the reasons for Jacobs’s termination in a letter.
K.

Jacobs’s Calculation of Unpaid Overtime

Jacobs claims that she consistently worked more hours than she recorded. Jacobs does
not know whether there is any week during her employment with Johnson Storage in which her
recorded hours accurately reflect all the hours she worked; could not explain how she decided
how many hours she was going to record in a week; and does not have any records showing
whether the time she reported actually reflects all the hours she worked.

7

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 8 of 28 PageiD #: 1847

Jacobs, with her attorney, came up with an estimate of the hours she worked but did not
record. Jacobs did not review any contemporaneous notes to come up with her estimate.
Instead, Jacobs based her estimate on her recollection and “just knowing how much time [she]
was putting in on an average.” The only documents Jacobs reviewed in determining her estimate
were her paychecks from Johnson Storage. Plaintiff claims that she worked a total of 129
unrecorded overtime hours.
L.

Jacobs’s Alleged Protected Activity

In addition to her conversations with Heaney, Jacobs spoke to three individuals at
Johnson Storage about overtime before her termination: Don Hindman, John Hiles, and Clark
. Zabokrtsky. Jacobs had only one overtime-related conversation with each of these three
individuals; Jacobs has no firsthand knowledge whether these conversations had anything to do
with her termination.
Jacobs spoke with Heaney about overtime on at least four occasions between May and
July 2017. Jacobs testified that Heaney told her not to log in overtime hours, and that Jacobs
responded, “I’m working more than an eight hour day, how is that legal?”
Jacobs called Hindman in May or June 2017. Jacobs testified that her main reason for
calling Hindman was to tell him that she needed more than eight hours a day to do her job and
that Heaney had told her to reduce her overtime. Jacobs claims that she told Hindman about
being “asked to under-report my hours” and “being asked to not log in the hours I was working.”
Jacobs called Hiles the week after she spoke to Hindman and recounted the conversation:
“We were talking about work and then I told him that I had a conversation with [Heaney] about
overtime and not logging in overtime. That was pretty much when he said, Yeah, Don Hindman
called me saying you had call[ed] him bitching about overtime.”

8

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 9 of 28 PageiD #: 1848

Jacobs spoke with Zabokrtsky, the general manager of Johnson Storage’s Kansas City
branch, in July 2017. During this conversation, Jacobs told Zabokrtsky that she was working
more than eight hours a day and was asked not to log in her hours.
M.

Jacobs’s Post-Termination Communications with Hindman

After her termination, Jacobs emailed Hindman, stating:
[Heaney] said she was firing me because of the overtime hours. In the
aforementioned email attachments, I asked for help to reduce the hours (without
success). I also offered several suggestions that would help reduce the workload
(without success or even a follow up phone call or email). At one point I asked
Tina if she was asking me to work the hours and not report them and she said, “I
can’t technically ask you to do that.” If you are limiting my overtime and not
offering any help, then I am being set up for failure. And, my being fired can only
be explained as retaliation for failing to perform an act which is to show 10 hours
of overtime each pay period when I am being given me far more work than can be
accomplished within that time. From my research this could be a violation of the
wage and hours laws.
Doc. 75 at

177-78.

A few days after receiving Jacobs’s email, Hindman called Jacobs. During the call,
Hindman related his varying viewpoints that her termination was “not performance related” or
“for cause[;]” that he thought she was a “very qualified personf;]” that Heaney “felt, rightly or
wrongly, she felt like you weren’t taking her direction and she felt like you were
insubordinate[;]” and that he “truthfully [did not] know why [Heaney] felt that way” but also
stated that “with my workload, I just don’t have time to, like, dig into every personnel issue
because we have too many.” Finally, Hindman told Heaney that Johnson Storage would not
contest a claim for unemployment and offered to give Jacobs a positive reference.
II.

STANDARD
Summary judgment is proper if the evidence, viewed in the light most favorable to the

nonmoving party, demonstrates no genuine issue of material fact exists and the moving party is
entitled to judgment as a matter of law. Fed. R. Civ. P. 56(c); Cordry v. Vanderbilt Mortg. & Fin.,
9

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 10 of 28 PagelD #: 1849

Inc., 445 F.3d 1106, 1109 (8th Cir. 2006) (quoting Bockelman v. MCI Worldcom, Inc., 403 F.3d
528, 531 (8th Cir. 2005)). The proponent of a motion for summary judgment “bears the initial
responsibility of informing the district court of the basis for its motion, and identifying those
portions of ‘the pleadings, depositions, answers to interrogatories, and admissions on file, together
with the affidavits, if any,’ which it believes demonstrate the absence of a genuine issue of material
fact.” Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986) (quoting Fed. R. Civ. P. 56(c)). The
proponent need not, however, negate the opponent's claims or defenses. Id. at 324—25. In response
to the proponent's showing, the opponent must “come forward with ‘specific facts showing that
there is a genuine issue for trial.’” Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S.
574,587 (1986) (quoting Fed. R. Civ. P. 56(e)). A “genuine” dispute of material fact is more than
“some metaphysical doubt as to the material facts.” Id. at 586. “[TJhere is no issue for trial unless
there is sufficient evidence favoring the nonmoving party for a jury to return a verdict for that
party.” Anderson v. Liberty Lobby, Inc., All U.S. 242, 249 (1986). “If the evidence is merely
colorable...or is not significantly probative-summary judgment may be granted.” Id. at 249-50
(citations omitted).
ffl.

DISCUSSION
Jacobs asserts four claims against Johnson Storage: Count I, for retaliation in violation of

the Fair Labor Standards Act, 29 U.S.C. § 201, et seq.\ Count II, a Missouri state-law claim for
wrongful discharge in violation of public policy; and, Counts III and IV, for failure to pay
overtime in violation of, respectively, FLSA and the Missouri Minimum Wage Law (MMWL),
Mo. Rev. Stat. § 290.500, et seq.

10

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 11 of 28 PagelD #: 1850

A.

FLSA Retaliation (Count I)

FLSA makes it unlawful to discharge an employee “because such employee has filed any
complaint or instituted or caused to be instituted any proceeding

or has testified or is about to

testify in any such proceeding, or has served or is about to serve on an industry committee.” 29
U.S.C. § 215(a)(3). In Kasten v. Saint—Gobain Performance Plastics Corp., 563 U.S. 1 (2011),
the Supreme Court found that the statutory term “filed any complaint” included oral complaints
as well as written complaints, meaning that oral complaints to employers can serve as the basis
of a FLSA retaliation claim. Id. at 4. Under the standard set out in Kasten, an oral complaint
“must be sufficiently clear and detailed for a reasonable employer to understand it, in light of
both content and context, as an assertion of rights protected by the statute and call for their
protection” to find the employee engaged in the statutorily-protected activity of filing a
complaint. Id. at 14.
The Court analyzes a claim of FLSA retaliation under the burden-shifting framework
established in McDonnell Douglas Corp v. Green, 411 U.S. 792 (1973). Grey v. City of Oak
Grove, Mo., 396 F.3d 1031, 1034 (8th Cir. 2005). Under the McDonnell Douglas burdenshifting framework, a plaintiff has the initial burden of establishing a prima facie case of
retaliation. Pye v. Nu Aire, Inc., 641 F.3dl011, 1021 (8th Cir. 2011). To establish a prima facie
case of retaliation, the plaintiff must show that “(1) she participated in a statutorily protected
activity, (2) the [employer] took adverse employment action against her, and (3) there was a
causal connection between [plaintiffj's statutorily protected activity and the adverse employment
action.” Montgomery v. Havner, 700 F.3d 1146,1149 (8th Cir. 2012). “If an employee
establishes a prima facie case of retaliation, the burden shifts to the employer to articulate a
legitimate, non-retaliatory reason for its action.” Fercello v. Cty. of Ramsey, 612 F.3d 1069,

11

Case: 4:18-cv-00024-SRC Doc. #: 81 Fifed: 03/03/20 Page: 12 of 28 PageiD #: 1851

1078 (8th Cir. 2010). If the employer does so, “the burden then shifts back to the employee to
put forth evidence of pretext, the ultimate question being whether a prohibited reason, rather than
the proffered reason, actually motivated the employer's action.” Id. In addition, a plaintiff
alleging retaliation must demonstrate that the adverse employment action would not have
occurred “but for” the retaliatory motive. Spencer v. Barton Cty. Ambulance Dist., No. 1605083-CV-SW-RK, 2017 WL 7036658, at *4 (W.D. Mo. Sept. 13, 2017) (citing University of
Texas Southwestern Med. Ctr. v. Nassar, 570 U.S. 338, 359 (2013)).
Johnson Storage moves for summary judgment on Jacobs’s FLSA retaliation claim on
two independent grounds. First, Johnson Storage argues that Jacobs cannot establish even a
prima facie case of retaliation because she did not engage in any protected activity. Second,
Johnson Storage argues that, even if Jacobs could establish a prima facie case, Johnson Storage
has put forth legitimate, non-retaliatory reasons for her termination and Jacobs cannot show that
those reasons are pretextual.
Jacobs asserts that she engaged in protected activity when she complained to Heaney,
Hiles, and Hindman “regarding her overtime hours and [Johnson Storage’s] overtime policies.”
Doc. 74 at 13. Johnson Storage argues that Jacobs’s oral complaints fall short of Kasten’s “clear
and detailed” requirement. Doc. 62 at 6-7. The Court need not decide whether Jacobs’s oral
complaints constituted protected activity because—even assuming Jacobs could make a prima
facie case—she cannot show that Johnson Storage’s legitimate reasons for her termination were
pretextual. See Riser v. Target Corp., 458 F.3d 817, 820-21 (8th Cir. 2006) (where employer has
proffered legitimate, non-discriminatory reasons for adverse employment action, court may skip
analysis of prima facie case and move directly to question of discrimination vel non).

12

Case: 4:18-cv-00024-SRC Doc.#: 81 Filed: 03/03/20 Page: 13 of 28 PagelD #: 1852

Johnson Storage undisputedly offered legitimate, non-retaliatory reasons for Jacobs’s
termination. During the telephone call in which Heaney told Jacobs of her termination, Heaney
articulated three reasons for the discharge: (1) Jacobs’s working unauthorized overtime, (2)
complaints from M. Dyer about Jacobs’s unprofessional conduct, and (3) Jacobs’s
unresponsiveness to emails from agents/vendors. Doc. 75-13. Heaney listed the same three
reasons in the termination letter to Jacobs. Doc. 75-12. Jacobs does not dispute that Johnson
Storage could legally terminate her employment for any of these three reasons. See Doc. 74 at
17 (acknowledging that “poor performance” is a legitimate reason for termination); see also
Ritchie v. St. Louis Jewish Light, 630 F.3d 713, 716-17 (8th Cir. 2011) (recording overtime hours
where such hours are unauthorized is insubordination, and not protected by FLSA). Thus,
because Johnson Storage has put forth legitimate reasons for her termination, Jacobs bears the
burden to show those reasons were pretextual. Grey, 396 F.3d at 1035.
Jacobs argues that she has presented sufficient evidence to create a genuine issue of
material fact that Johnson’s Storage’s articulated reasons for her termination were pretext for
retaliation. Doc. 74 at 15-16. First, Jacobs argues that Johnson Storage has offered shifting and
inconsistent reasons for her termination. “Pretext may be shown with evidence that the
employer's reason for the termination has changed substantially over time.” Loeb v. Best Buy
Co., 537 F.3d 867, 873 (8th Cir. 2008). Further, “[i]f the proffered reason is shown by
conflicting evidence to be untrue, then the nonmoving party is entitled to all favorable inferences
that the false reason given masks the real reason of intentional discrimination.” Id. (quoting
Bassett v. City ofMinneapolis, 211 F.3d 1097, 1107 (8th Cir. 2000)).
As evidence that the articulated reasons for her termination are false and have shifted
over time, Jacobs points to her post-termination phone call with Hindman, Johnson Storage’s

13

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 14 of 28 PagelD #: 1853

General Counsel. During that call, Hindman told Jacobs he considered her a “very qualified
person” and that her termination was “not performance related” or “for cause.” Doc. 75-14.
Jacobs argues that Hindman’s comments demonstrate inconsistency in Johnson Storage’s
rationale for her termination. However, in the same call, Hindman stated that Heaney felt Jacobs
“[was not] taking direction” and was “insubordinate.” Id. Hindman acknowledged that he “did
not know why [Heaney] felt that way” because he did not have time to personally investigate
every personnel issue. Id. Further, Hindman’s comments that Jacobs’s termination was “not
performance related” or “for cause” came in the context of his representation that Johnson
Storage would not oppose Jacobs’s claim for unemployment.
Jacobs also relies on a Notice of Decision from the Colorado Department of Labor and
Unemployment, finding “based on information received” that Jacobs was laid off from Johnson
Storage “due to a lack of work,” and therefore eligible for unemployment benefits. Doc. 75-15.
The document does not disclose anything about where the tribunal obtained its information, so it
cannot evidence inconsistency in Johnson Storage’s rationale for Jacobs’s termination.
Furthermore, this finding is wholly consistent with Hindman’s representation that Johnson
Storage would not oppose Jacobs’s claim for unemployment. Doc. 75-14. Accordingly,
Hindman’s comments do not evidence that Johnson Storage’s articulated reasons for Jacobs’s
termination were false or shifted over time.
Jacobs next argues that Johnson Storage’s proffered reasons for her termination are
pretextual because there is no evidence of poor performance. This argument lacks merit. When
Heaney sent her email to Manandhar on July 11,2017, she noted that Jacobs was insubordinate,
frequently unresponsive, and that she repeatedly recorded unauthorized overtime. Thus, about

14

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 15 of 28 PagelD #: 1854

five weeks before terminating Jacobs, Heaney described two of the three performance issues that
Heaney would cite as the reasons for Jacobs’s termination.
Further, Jacobs does not dispute that shortly before her termination, Johnson Storage’s
key business partner M. Dyer complained to Heaney about Jacobs’s “curt, unprofessional
manner”. Doc. 75 at f 98. Nor does Jacobs dispute that both her peer, Diana Miller, and
agents/vendors of Johnson Storage made other unsolicited complaints about Jacobs to Heaney
before her termination. Doc. 75 at ff 84-89. To the extent Jacobs argues that there is no
evidence of actual poor performance because these complaints were inaccurate or
unsubstantiated, she misunderstands the evidentiary burden. See Grey, 396 F.3d at 1035 (“The
question is whether appellees' articulated reasons for discharge were a pretext for retaliation, not
whether appellant actually did what he was accused of doing or whether discharge was
warranted.”); see also Logan v. Liberty Healthcare Corp., 416 F.3d 877, 883 (8th Cir. 2005)
(“We do not ‘sit as super-personnel departments reviewing the wisdom or fairness of the
business judgments made by employers, except to the extent that those judgments involve
intentional discrimination or unlawful retaliation.’”) (quoting Henderson v. Ford Motor Co., 403
F.3d 1026, 1034 (8th Cir. 2005)). In sum, the record contains substantial evidence documenting
the very performance issues for which Johnson Storage terminated Jacobs.
Jacobs attempts to discount the complaints Johnson Storage received about her
performance after July 11, 2017 by arguing that Heaney had already made the decision to
terminate her by then. Doc. 74 at 18-20. Jacobs argues that the subsequent complaints evidence
a Heaney-engineered campaign to document her deficiencies to justify Heaney’s already-made
decision. Id. Jacobs’s argument fails for at least two reasons. First, the evidence does not
support Jacobs’s contention that Heaney had already made the decision to terminate her by July

15

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 16 of 28 PageiD #: 1855

11,2017. In her email to Manandhar on that date, Heaney stated “I have already started thinking
about how to begin the process of hiring a replacement, however I want to make sure I handle it
in a way that is legal and doesn’t hurt the company.” Doc. 75-7 (emphasis added). Heaney’s
statement that she had “started thinking” about hiring Jacobs’s replacement does not show
Heaney had already made the decision. Second, no evidence suggests Heaney solicited any of
the complaints Johnson Storage received from its agent and vendors, and Jacobs admits that
these complaints came unsolicited. Doc. 75 at f 89, 99. Thus, the evidence shows that Heaney
was already dissatisfied with Jacobs’s performance on July 11,2017, and that she received
multiple unsolicited complaints about Jacobs after that date.
Finally, Jacobs argues that the temporal proximity between her complaints and her
termination is evidence of pretext. Doc. 74 at 20. Contrary to Jacobs’s assertion, “[generally,
more than a temporal connection between the protected conduct and the adverse employment
action is required to present a genuine factual issue on retaliation.” Kiel v. Select Artificials, Inc.,
169 F.3d 1131, 1136 (8th Cir. 1999). By her own admission, “Jacobs first complain[ed] to Ms.
Heaney in approximately April 2017.” Doc. 74 at 21. Johnson Storage terminated Jacobs’s
employment in August 2017—some four months after her first complaint. The Court finds this
timing insufficient to show pretext. See Kipp v. Missouri Highway & Transp. Comm'n., 280
F.3d 893, 897 (8th Cir. 2002) (interval of two months “so dilutes any inference of causation that
we are constrained to hold as a matter of law that the temporal connection could not justify a
finding in [plaintiff's favor on the matter of causal link”); see also Arraleh v. Cty. ofRamsey,
461 F.3d 967, 978 (8th Cir. 2006) (in absence of other evidence of pretext, three-week interval
insufficient to create genuine factual issue).

16

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 17 of 28 PagelD #: 1856

Further, even if the four-month interval between Jacobs’s complaints and her termination
could evidence pretext, intervening events ‘“erode any causal connection’ suggested by temporal
proximity.” Cheshewalla v. Rand & Son Const. Co., 415 F.3d 847, 852 (8th Cir. 2005) (quoting
Kiel, 169 F.3d at 1136). Here, Heaney undisputedly received multiple unsolicited complaints
about Jacobs between April 2017 and her termination in August 2017. And Jacobs does not
dispute that, after her complaints, she continued to record more overtime than authorized. These
intervening events also defeat Jacobs’s claim of causal connection.
In sum, the Court finds no evidence from which a reasonable jury could determine that
Johnson Storage’s stated reasons for Jacobs’s termination were pretextual. Accordingly, the
Court grants summary judgment for Johnson Storage on Jacobs s FLSA retaliation claim (Count
I).
B.

Wrongful Discharge in Violation of Missouri Public Policy (Count II)

Missouri follows the general rule “that an at-will employee may be terminated for any
reason or no reason[.]” Fleshner v. Pepose Vision Inst, P.C., 304 S.W.3d 81, 92 (Mo. banc
2010). Because Jacobs’s claim arose before the effective date of Missouri’s Whistleblower
Protection Act, Missouri common law governs Jacobs’s claim. Meehan v. PNC Fin. Servs. Grp.,
Inc., No. 4:17-CV-2876 PLC, 2018 WL 2117655, at *5 (E.D. Mo. May 8, 2018). Missouri
common law included a public-policy exception, which prohibited termination of an at-will
employee for either: (1) “refusing to violate the law or any well-established and clear mandate of
public policy as expressed in the constitution, statutes, regulations promulgated pursuant to
statute, or rules created by a governmental body”; or (2) “reporting wrongdoing or violations of
law to superiors or public authorities, also known as ‘whistleblowing.’” Newsome v. Kansas

17

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 18 of 28 PagelD #: 1857

City, Mo. Sch. Dist, 520 S.W.3d 769, 111 (Mo. Banc 2017) (quoting Fleshner, 304 S.W.3d at
92).
Jacobs claims that Johnson Storage wrongfully terminated her both for refusal to violate
the law and for whistleblowing. The Court first considers Jacobs’s common-law whistleblowing
claim.
C.

Discharge for Whistleblowing

To prevail on this claim, Jacobs must demonstrate that: “(1) she reported serious
misconduct that constituted a violation of the law and of well-established and clearly-mandated
public policy; (2) her employer discharged her, and (3) her report causally contributed to the
discharge.” Yerra v. Mercy Clinic Springfield Communities, 536 S.W.3d 348, 351 (Mo. App.
S.D. 2017). Jacobs’s complaints to Heaney do not constitute whistleblowing under the Missouri
common law public policy exception, because, as this Court previously found, “a report of
wrongdoing to the wrongdoer is insufficient to invoke the whistleblowing public policy
exception.” Doc. 13 at 5-6 (quoting Drummond v. Land Learning Found., 358 S.W.3d 167,171
(Mo. App. 2011)).
Johnson Storage argues that Jacobs cannot show that her complaints to Hindman, Hiles,
or Zabokrtsky causally contributed to her termination. Doc. 62 at 16. Jacobs admits that she had
one only one conversation each with Hindman, Hiles, and Zabokrtsky about overtime before her
termination. Jacobs called Hindman in May or June 2017 to tell him that she needed more than
eight hours a day to do her job and that Heaney had told her to reduce her overtime. Jacobs
testified that she told Hindman she was being “asked to under-report my hours” and “being
asked to not log in the hours I was working.” Jacobs testified that she called Hiles the week after
she spoke to Hindman and told him about “not logging in overtime.” Jacobs spoke with

18

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 19 of 28 PageiD #: 1858

Zabokrtsky in July 2017 and told him that she was working more than eight hours a day and had
been asked not to log in her hours.
Regarding Jacobs’s calls to Hiles and Zabokrtsky, the Court finds no evidence from
which a reasonable jury could infer that these complaints were a contributing factor in Jacobs’s
termination. Jacobs does not dispute that Heaney was the decisionmaker who ultimately decided
to terminate her employment. See Doc. 74 at 20, 21. No evidence suggests that Heaney was
even aware of Jacobs’s complaints to Hiles or Zabokrtsky, much less that these complaints
influenced her decision to terminate Jacobs.
Conversely, some evidence could indicate that Hindman influenced Heaney’s decision to
terminate Jacobs. A few days before Heaney terminated Jacobs, Heaney discussed Jacobs s
performance with Hindman, telling Hindman she intended to give Jacobs a disciplinary wnte-up.
Hindman replied: “I don’t know why you’re messing around with this. Just terminate her.” Doc.
75 at If 103. Thus, Jacobs complained to Hindman in May or June that Heaney was asking her to
under-report hours, then Hindman told Heaney on August 13 to “just terminate” Jacobs, which
Heaney did four days later.
However, no evidence indicates that Hindman told Heaney about Jacobs’s complaint to
him—on August 13 or at any other time. Nor does any evidence support a reasonable inference
that Jacobs’s complaint in May or June influenced Hindman’s advice to Heaney in August to
“just terminate” Jacobs. Jacobs herself admitted that she has no personal knowledge that her
complaint to Hindman had anything to do with her termination. Doc. 75 at f 184. Thus, the
only “evidence” of a causal relationship between Jacobs’s complaint to Hindman and her
termination is that the one preceded the other by two or three months. Unlike the “but for”
causation standard of a FLSA retaliation claim, Jacobs need only show that her complaint to

19

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 20 of 28 PagelD #: 1859

Hindman was a “contributing factor” in her termination. Fleshner, 304 S.W.3d at 95. Even
under this more lenient standard, Jacobs has presented insufficient evidence to withstand
summary judgment. The Court finds here that the temporal proximity between the complaint
and adverse action—in the absence of any other evidence of a causal relationship—does not
create a genuine issue of material fact on the issue of causation. Accordingly, the Court grants
Johnson Storage’s motion for summary judgment on Jacobs’s Missouri common law
whistleblowing claim.
2.

Discharge for Refusal to Perform an Illegal Act

Jacobs separately argues that Johnson Storage wrongfully discharged her in violation of
Missouri public policy for refusing to violate the law. To come within this “narrow category of
protected employees,” Jacobs must show, first, that Johnson Storage directed her to engage in
conduct that “violated a statute, constitutional provision, or regulation adopted pursuant to
statute.” Bartis v. John Bommarito Oldsmobile-Cadillac, Inc., 626 F. Supp. 2d 994, 1000 (E.D.
Mo. 2009). Second, Jacobs must show that she “was discharged for [her] refusal to perform the
unlawful act.” Id.
Jacobs alleges that Heaney directed her to violate the law by instructing her to under­
report her working hours. Johnson Storage argues for summary judgment because “the
undisputed facts establish that Ms. Heaney did not direct Plaintiff to underreport her hours.”
Doc. 62 at 13. The Court agrees. At most, the evidence shows Jacobs had a subjective belief
that Heaney wanted her to work more hours than she reported. The record contains no objective
evidence that Heaney ever actually gave Jacobs such an instruction. During her deposition,
Jacobs testified repeatedly that Heaney instructed her not to log in overtime hours. Doc. 75-1 at

20

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 21 of 28 PagelD #: 1860

87:9-15; 90:10-15; 219:17-220:17. However, when asked directly whether Heaney ever
instructed her to work off the clock, Jacobs testified:
Q

Did [Heaney] ever give you an explicit instruction to work off the clock?

A

She told me not to log in the hours.

Q
Did she also say to work the hours and not log them in or did she just say
not to log in the hours?
A
There was no instruction to not do the work. The instruction was always
not to log in the hours.
Q

How many times did she give you the instruction not to log in the hours?

When we would talk - pretty much the majority of the time when I would
A
have a conversation with her, it was - you know, I would ask for help. It was the
same routine. I’m being told I need to reduce your hours. You need to stop
logging in hours. I - I’m on a salary and I know they want me to help but that’s
not going to happen. And just a number of responses.
Q

So did she ever tell you to continue working and not log the hours?

Isn’t -1 believe that’s what I just said. She told me not to log in the hours,
A
I asked for help, and she would say back that there’s no help coming.
Doc 75-1 at 219:17-220:17.
Jacobs’s subjective belief that Heaney was instructing her to work off the clock does not
create a genuine issue of fact. In Bazzi v. Tyco Healthcare Grp., LP, 652 F.3d 943, 948 (8th Cir.
2011), the Eighth Circuit upheld summary judgment for an employer on a Missouri common-law
claim of wrongful discharge for refusal to violate the law. The appeals court agreed with the
district court’s finding that the employee had failed to create a genuine issue of fact where he
“failed to offer even a scintilla of admissible evidence” showing that the employer’s conduct at
issue was a “clear violation” of the law. Id. (citing Margiotta v. Christian Hosp. Ne. Nw., 315
S.W.3d 342, 348 (Mo. 2010); see also Zasaretti-Becton v. Habitat Co. ofMissouri, LLC, No.
4:12 CV 587 DDN, 2012 WL 2396868, at *8 (E.D. Mo. June 25,2012) (“a reasonable belief of
legal wrongdoing is not itself sufficient to succeed on an unlawful termination claim brought
21

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 22 of 28 PagelD #: 1861

under Missouri’s public policy exception to the at-will employment doctrine”). Thus, Jacobs
must show more than that Heaney instructed her to not “log in” overtime hours and that she
subjectively understood this as a directive to under-report her hours. Jacobs must show that
Heaney actually instructed her to under-report her hours, in “clear violation” of FLSA and the
MMWL. Bazzi, 652 F.3d at 948. The summary judgment record shows the opposite.
In her deposition testimony, Jacobs repeatedly stopped short of stating that Heaney
instructed her to work off the clock. Doc 75-1 at 219:17-220:17. During the telephone call
when Heaney informed Jacobs of her termination (which Jacobs surreptitiously recorded),
Heaney told Jacobs:
[W]e talked about ten hours of overtime per pay period and that you were to
evaluate your workload and your hours on Thursday and communicate with me
what you weren’t able to complete so that we could evaluate how to — how to
accomplish yourjob in the amount ofhours that were allowed.
Doc. 75 at 1109 (emphasis added). And in Jacobs’s post-termination email to Hindman, she
stated: “While I was not happy working 10-11 hour days, I was not going to let the customer’s
[sic] down by working 8-9 hour days which would result in service failures. ... I worked 10-11
hour days out of necessity.” Doc. 75-2. Jacobs’s email to Hindman continued: “At one point I
asked [Heaney] if she was asking me to work the hours and not report them and she said ‘I can’t
technically ask you to do that.’” Id. In sum, Jacobs has identified no evidence showing that
Heaney instructed her to under-report her hours.
Nor does it matter that Jacobs believed her job duties could not be completed in 40 hours.
In Ritchie, the plaintiff specifically alleged that her work duties required more than 40 hours in a
week and therefore required overtime. 630 F.3d at 716. Nevertheless, the Eighth Circuit
affirmed dismissal because the employer had not authorized overtime. Id. At 716-17. Thus, “her
recording of her overtime could be nothing more than mere insubordination, she having been
22

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 22 of 28 PageiD #: 1861

under Missouri’s public policy exception to the at-will employment doctrine”). Thus, Jacobs
must show more than that Heaney instructed her to not “log in” overtime hours and that she
subjectively understood this as a directive to under-report her hours. Jacobs must show that
Heaney actually instructed her to under-report her hours, in “clear violation” of FLSA and the
MMWL. Bazzi, 652 F.3d at 948. The summary judgment record shows the opposite.
In her deposition testimony, Jacobs repeatedly stopped short of stating that Heaney
instructed her to work off the clock. Doc 75-1 at 219:17-220:17. During the telephone call
when Heaney informed Jacobs of her termination (which Jacobs surreptitiously recorded),
Heaney told Jacobs:
[W]e talked about ten hours of overtime per pay period and that you were to
evaluate your workload and your hours on Thursday and communicate with me
what you weren’t able to complete so that we could evaluate how to - how to
accomplish yourjob in the amount of hours that were allowed.
Doc. 75 at f 109 (emphasis added). And in Jacobs’s post-termination email to Hindman, she
stated: “While I was not happy working 10-11 hour days, I was not going to let the customer’s
[sic] down by working 8-9 hour days which would result in service failures. ... I worked 10-11
hour days out of necessity.” Doc. 75-2. Jacobs’s email to Hindman continued: “At one point I
asked [Heaney] if she was asking me to work the hours and not report them and she said ‘I can’t
technically ask you to do that.”’ Id. In sum, Jacobs has identified no evidence showing that
Heaney instructed her to under-report her hours.
Nor does it matter that Jacobs believed her job duties could not be completed in 40 hours.
In Ritchie, the plaintiff specifically alleged that her work duties required more than 40 hours in a
week and therefore required overtime. 630 F.3d at 716. Nevertheless, the Eighth Circuit
affirmed dismissal because the employer had not authorized overtime. Id. At 716-17. Thus, “her
recording of her overtime could be nothing more than mere insubordination, she having been
22

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 23 of 28 Page!D #: 1862

instructed to the contrary.” Id. Further, the plaintiffs allegation that her employer instructed her
to “stop recording overtime” did not, standing alone, allege misconduct, since the employer
“could merely have been instructing [plaintiff] to complete the work required by the job within a
40-hour workweek and to stop working overtime altogether.” Id. At 717 n.2. Similarly, Jacobs’s
testimony that Heaney directed her to “stop logging overtime” does not, standing alone, show
that Heaney instructed Jacobs to under-report hours.
Jacobs has failed to raise a genuine issue of material fact as to whether Johnson Storage
instructed her to violate the law by under-reporting her hours. Accordingly, the Court grants
Johnson Storage’s motion for summary judgment on Jacobs’s claim of wrongful discharge for
refusal to violate the law in violation of Missouri public policy (Count II).
C.

Failure to Pay Overtime in Violation of FLSA (Count HI) and MMWL
(Count IV)

Under section 7 of FLSA, an employer may not subject non-exempt employees to a work
week in excess of forty hours without paying overtime of at least one and one-halftimes the
regular hourly wage. 29 U.S.C. § 207. An employer who violates this restriction “shall be liable
to the employee or employees affected in the amount of their ... unpaid overtime compensation ...
and in an additional equal amount as liquidated damages.” 29 U.S.C. § 216(b). Under the
MMWL, “[n]o employer shall employ any of his employees for a workweek longer than forty
hours unless such employee receives compensation for his employment in excess of the hours
above specified at a rate not less than one and one-half times the regular rate at which he is
employed.” Mo. Rev. Stat. § 290.505. The MMWL explicitly provides that this provision “shall
be interpreted in accordance with the Fair Labor Standards Act, 29 U.S.C. Section 201, et seq.”
Id. Accordingly, the Court may jointly consider Jacobs’s claims for unpaid overtime under
FLSA and the MMWL. Anderson v. Creve Coeur Urgent Care LLC, No. 4.T6CV2136 HEA,
23

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 24 of 28 PagelD #: 1863

2019 WL 4643954, at *3 n.l (E.D. Mo. September 24,2019); Tolentino v. Starwood Hotels &
Resorts Worldwide, Inc., 437 S.W.3d 754, 757 n.3 (Mo. banc 2014).
To prevail on a claim for unpaid overtime, a plaintiff must show: (1) that she worked
overtime hours that were uncompensated, and (2) that the employer “knew or should have
known” that the plaintiff worked unpaid overtime. Hertz v. Woodbury Cty., Iowa, 566 F.3d 775,
781 (8th Cir. 2009). If an employer fails to keep accurate records of wages and hours,
employees are not denied recovery under FLS A simply because they cannot prove the precise
extent of their uncompensated work. Holaway v. Stratasys, Inc., Ill F.3d 1057, 1059 (8th Cir.
2014). Instead, a “relaxed standard of proof’ applies. Id. Under this evidentiary standard, “once
the employee has shown work performed for which the employee was not compensated, and
‘sufficient evidence to show the amount and extent of that work as a matter of just and
reasonable inference,’ the burden then shifts to the employer to produce evidence to dispute the
reasonableness of the inference.” Id. (quoting Carmody v. Kansas City Bd. ofPolice Comm'rs,
713 F.3d 401,406 (8th Cir. 2013)). Here, the Court assumes without deciding that the relaxed
standard of proof applies.
Johnson Storage argues that it is entitled to summary judgment on Jacobs’s unpaid
overtime claims on two independent grounds. First, Jacobs cannot show Johnson Storage knew
or should have known that she worked unpaid overtime hours. Second, even under the relaxed
standard of proof, Jacobs cannot meet her burden to show the amount of unpaid overtime as a
matter of just and reasonable inference. Holaway, 111 F.3d at 1059.
The Court finds that Jacobs cannot show the amount of unpaid overtime as a matter of
just and reasonable inference.1 Jacobs claims that she worked a total of 129 hours of unpaid

1 Jacobs’s Opposition brief wholly fails to respond to Johnson Storage’s argument that she cannot meet her burden
to show the amount of unpaid overtime as a matter ofjust and reasonable inference. Failure to oppose a basis for

24

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed; 03/03/20 Page: 25 of 28 PagelD #: 1864

overtime. Jacobs does not dispute that this number is an “estimate” based solely on her own
recollection and on “just knowing how much time she was putting in on an average.” Doc. 75 at
HU 121-22; Doc. 75-1 at 114:34-115:20. In arriving at her estimate, Jacobs did not consult any
contemporaneous notes or other documents showing the amount of time she worked but did not
report to Johnson Storage. The only documents Jacobs relied on were her paycheck stubs from
Johnson Storage.
In Holaway, the Eighth Circuit affirmed summary judgment for the employer on a FLSA
unpaid overtime claim finding that the plaintiff failed to establish the amount of uncompensated
work as a matter ofjust and reasonable inference. 771 F.3d at 1060. The Court noted that the
plaintiff had put forth “contradictory and bare assertions of his overtime hours worked”
supported only by ‘vague testimony [that] failed to reference specific days and hours worked.”
Id. at 1059-1060.
The Court finds Holcrway controls here. As in Holaway, Jacobs only offers her own
testimony to support her claim of 129 unpaid overtime hours. During her deposition, Jacobs was
twice asked to explain the basis of her estimate:
Q
Did you - when you came up with the number that ultimately you and
your prior counsel decided you worked and weren’t paid for, did you look at any
documents in coming up with that number?
A.

No, other than just knowing how much time I was putting in on average.

Q
Okay. So is it fair to say that the number you came up with was just your
estimate based on your recollection?
A

Mm-mm.

Q

Is that a yes?

summ ary judgment may constitute waiver of that argument. Satcher v. Univ. ofArkansas at Pine BluffBd of
Trustees, 558 F.3d 731, 735 (8th Cir. 2009).

25

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page; 26 of 28 PagelD #: 1865

A

Yeah, my recollection was included in there as well.

Q

Okay. Was anything included other than your recollection?

A

No.

Doc. 75-1 at 114:24-115:20.
Q

Where did you come up with these numbers?

A
Sol initially worked them out based on looking at the paycheck and doing
-1 did it two weeks, and then I believe it was [Jacobs’s prior counsel], he went
over it and we worked on it together.
Q
Did you reference any documents other than your paycheck stubs to come
up with this answer?
A

No, I had no other documents.

Q

You didn't have any sort of notes or anything like that?

A

No.

Doc. 75-1 at 207:14-25. Jacobs’s testimony is vague and does not reference specific days
worked. Holaway, 111 F.3d at 1060. And Jacobs’s reliance on her paycheck stubs to determine
her estimate hurts rather than helps her claim. Jacobs’s paychecks reflected numbers of hours
that she herself claims she reported inaccurately. Doc. 75 at ffll 45,121-22.
Further, as in Holaway, Jacobs has offered “contradictory and bare assertions” of her
overtime hours worked. 771 F.3d at 1059. Jacobs based her claim of 129 unpaid overtime hours
on her recollection of hours she allegedly worked but did not record during the period from
March to August 2017. Doc. 75-1 at 114:24-115:20; 208:1-209:25. However, in her Opposition
brief, Jacobs now asserts that she “accurately recorded her hours worked” from April to August
17, 2017. Doc. 74 at 6. Further, Jacobs concedes that she does not know if there is any week she
worked for Johnson Storage where she accurately recorded all the hours she worked. Doc. 75 at
^1149. These representations are irreconcilably contradictory. See Holloway v. United States,
960 F.2d 1348, 1358 (8th Cir. 1992) (self-contradicting statement is insufficient to create a
26

Case: 4:18-cv-00024-SRC Doc.#: 81 Filed: 03/03/20 Page: 27 of 28 PagelD #: 1866

genuine issue of material fact). Jacobs offers no revised calculation or other evidence from
which a jury could determine Jacobs’s allegedly unpaid overtime hours.
The Court also finds Zhou v. Int'l Bus. Machines Corp., No. 15-CV-1027-LRR, 2017 WL
1217195 (N.D. Iowa Mar. 31,2017), affd, 709 F. App'x 413 (8th Cir. 2018), instructive here. In
Zhou, the district court granted summary judgment for the employer because the plaintiff failed
to offer evidence from which a jury could calculate a measure of unpaid hours worked as a
matter ofjust and reasonable inference. The plaintiff, who worked remotely and recorded his
own hours, admitted that he did not keep notes contemporaneously as he worked and that he had
no other objective evidence demonstrating the amount of overtime that he worked. Id. at *21.
The court found the record unclear as to how often the plaintiff worked overtime without
claiming it, and how often he merely claimed less overtime than he worked. Id. The plaintiff
testified that he “normally” worked twice the amount of overtime that he recorded, but the court
found this calculation insufficient.
[T]he only method that Zhou puts forth to demonstrate the extent of
uncompensated time worked is based on mere approximation and Zhou admits
that it was not consistently applied. Without any evidence that Zhou employed
this method with any more regularity than “[njormally,” the court cannot
conclude that a jury could find, as a matter ofjust and reasonable inference, an
amount of hours that Zhou worked but for which he was not compensated. Zhou's
contentions are unsupported by anything but his own self-serving statements,
which in turn are unsupported by any evidence in the record.
Id. As in Zhou, Jacobs has failed to offer any objective evidence to support her own self-serving
estimate and approximation. Accordingly, following Holaway and Zhou, the Court finds that
Jacobs has not met her burden to produce “sufficient evidence to show the amount and extent of
[uncompensated] work as a matter ofjust and reasonable inference.” Holaway, 771 F.3d at

27

Case: 4:18-cv-00024-SRC Doc. #: 81 Filed: 03/03/20 Page: 28 of 28 PagelD #: 1867

1059. The Court therefore grants summary judgment for Johnson Storage on Jacobs’s claims of
unpaid overtime under FLSA (Count HI) and the MMWL (Count IV).2
Accordingly,
IT IS HEREBY ORDERED that [61] Johnson Storage’s Motion for Summary
Judgment is GRANTED.
IT IS FURTHER ORDERED that [79] Johnson Storage’s Consent Motion to Continue
Trial is DENIED as moot.
So Ordered this 3rd day of March, 2020.

STEPHEN R. CLARK
UNITED STATES DISTRICT JUDGE

2 Because the Court finds that Johnson Storage is entitled to summary judgment on Jacobs’s unpaid overtime claims
because Jacobs cannot show the amount of unpaid overtime as a matter ofjust and reasonable inference, the Court
need not reach Johnson Storage’s alternative argument for summary judgment on these claims, i.e., that Johnson
Storage neither knew nor should have known that Jacobs was working unpaid overtime.
28

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 1 of 16 PageiD #: 2098

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
KATHERINE JACOBS,
Plaintiff(s),
vs.
JOHNSON STORAGE & MOVING
CO. HOLDING, LLC,

)
)
)
)
)
)
)
)
)

Case No. 4:18-cv-00024-SRC

Defendant(s).
Memorandum and Order
The Court considers Plaintiff Katherine Jacobs’s Motion for Relief of Judgment. Doc.
95. Jacobs initially brought this action against Defendant Johnson Storage & Moving Co.
Holding, LLC, for retaliatory termination under the Fair Labor Standards Act (FLSA), wrongful
discharge under Missouri public policy, and unpaid overtime under the FLSA and Missouri
Minimum Wage Law. Doc. 1; Doc. 20. On March 3, 2020, the Court entered summary
judgment in favor of Johnson Storage on all counts. Doc. 81. On November 12,2020, the
Eighth Circuit affirmed. Doc. 92; Doc. 93. And on December 18, 2020, the Eighth Circuit
denied Jacobs’s petition for rehearing by panel. Doc. 100-A. Jacobs now seeks relief from the
Court’s summary judgment order under Federal Rule of Civil procedure 60(b).1 Doc. 95. The
Court finds that Jacobs’s motion lacks merit and therefore denies her Motion for Relief of
Judgment [95]. The Court also denies Jacobs’s Motion for a Subpoena [98] and Motion for
Relief from Defendant’s Bill of Costs [103].
I.

Standard

i

Jacobs combined her Motion for Relief of Judgment with a Motion for Indicative Relief,
pursuant to Federal Rule of Civil Procedure 62.1. Doc. 95.
1

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 2 of 16 PagelD #: 2099

Federal Rule of Civil Procedure 60(b) gives the district court power to relieve a party
from a judgment for certain limited reasons. Fed. R. Civ. P. 60(b). These reasons include: (1)
mistake, inadvertence, surprise, or excusable neglect, (2) newly-discovered evidence, or (3)
fraud, misrepresentation, or misconduct by an opposing party. Fed. R. Civ. P. 60(b)(l)-(3). Rule
60(b) “provides for extraordinary relief which may be granted only upon an adequate showing of
exceptional circumstances.” Atkinson v. Prudential Property Co., 43 F.3d 367, 371 (8th Cir.
1994) (internal citations and quotations omitted). Courts view Rule 60(b) motions with disfavor.
Rosebud Sioux Tribe v. A &P Steel, Inc., 733 F.2d 509, 515 (8th Cir.), cert, denied, 469 U.S.
1072 (1984). Further, the decision to grant relief under Rule 60(b) rests “within the sound
discretion of the district court.” Mitchell v. Shalala, 48 F.3d 1039, 1041 (8th Cir. 1995). A
district court may, without first obtaining leave of the appellate court, act on a Rule 60(b) motion
after the appellate court disposes of an appeal. Standard Oil Co. of Calif, v. United States, 429
U.S. 17, 19 (1976).
II.

Discussion
A.

Motion for Relief from Judgment

Jacobs asks for relief from judgment based on excusable neglect, newly-discovered
evidence, peijury, and fraud. Doc. 95. Under Rule 60(b)(1), Jacobs seeks relief for excusable
neglect due to her former counsel’s alleged lack of competence. Doc. 95 at p. 14. Under Rule
60(b)(2), she seeks relief due to the discovery of new evidence on a previously-unopened laptop
in her possession. Doc. 95 at p. 9. Finally, under Rule 60(b)(3), Jacobs seeks relief for fraud and
misconduct by Johnson Storage based on allegedly falsified discovery documents. Doc. 95 at p.
11 • In response, Johnson Storage states that Jacobs does not present any evidence to establish
“exceptional circumstances” under any of the grounds for relief in Rule 60(b).

2

Case: 4;18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 3 of 16 PagelD #: 2100

1.

Excusable neglect

Rule 60(b)(1) applies in “situations in which the failure to comply with a filing deadline
is attributable to negligence” and “must be accompanied by a showing of good faith and some
reasonable basis for not complying with the rules.” Noah v. Bond Cold Storage, 408 F.3d 1043,
1045 (8th Cir. 2005) (internal citations omitted). Excusable neglect does not include ignorance
or carelessness of an attorney, nor does it include mistakes of law or failure to follow the clear
dictates of a court rule. Id. (citing Hunt v. City ofMinneapolis, 203 F.3d 524, 528 n.3 (8th Cir.
2000)). In considering excusable neglect, courts must consider several factors, including “(1) the
danger of prejudice to the non-moving party, (2) the length of delay and its potential impact on
judicial proceedings, (3) whether the movant acted in good faith, and (4) the reason for the delay,
including whether it was in the reasonable control of the movant.” In re Guidant Corp.
Implantable Defibrillators Products Liability Litigation, 496 F.3d 863, 866-67 (8th Cir. 2007)
(citing Pioneer Inv. Serv. Co. v. Brunswick Ass’n Ltd. Partnership, 507 U.S. 380, 395 (1993)).
Jacobs does not allege that she or her former counsel accomplished an act or omission,
such as missing a deadline, which the Court could excuse under Rule 60(b)(1). Rather, Jacobs
alleges a lack of competence by her counsel, providing four examples. Doc. 95 at p. 16-17.
Jacobs claims that her counsel 1) should have deposed an additional witness, 2) did not properly
prepare her for deposition, 3) did not properly prepare for mediation, and 4) abandoned her after
the Court issued its summary judgment order. Id. None of these instances involve excusable
neglect that the Court can remedy through Rule 60(b)(1). See Sutherland v. ITT Continental
Baking Co., 710 F.2d 473,476-77 (8th Cir.1983) (“Rule 60(b) has never been a vehicle for relief
because of an attorney's incompetence or carelessness.”). The Court finds that Jacobs does not

3

Case: 4:18-cv-00024-SRC Doc.#: 105 Filed: 03/03/21 Page: 4 of 16 PageiD #: 2101

establish excusable neglect, therefore, she is not entitled to relief from judgment under Rule
60(b)(1).
2.

Newly-discovered evidence

A Rule 60(b)(2) motion based on the discovery of new evidence must show “(1) that the
evidence was discovered after the court’s order, (2) that the movant exercised diligence to obtain
the evidence before entry of the order, (3) that the evidence is not merely cumulative or
impeaching, (4) that the evidence is material, and (5) that the evidence would probably have
produced a different result.” Greyhound Lines, Inc. v. Wade, 485 F.3d 1032, 1036 (8th Cir.
2007) (citing United States v. Metro. St. Louis Sewer Dist., 440 F.3d 930, 933 n.3 (8th Cir.
2006).
Jacobs alleges that during discovery, Johnson Storage withheld multiple emails that show
that Johnson Storage knew she was working uncompensated overtime hours. Doc. 95 at p. 9-11.
Jacobs claims that she discovered these missing emails after the Court’s summary judgment
order, but she does not attempt to explain how or when she obtained these emails. Id. Her reply
in support of her motion elaborates that she found the emails on her company laptop, which she
and her attorneys possessed during the pendency of this case. Doc. 102 at p. 9-11. Jacobs claims
that she opened her company laptop and discovered the emails for the first time after the Court
issued its summary judgment order in favor of Johnson Storage. Id. The Court finds that these
emails do not constitute “newly discovered evidence” for purposes of Rule 60(b)(2).
Jacobs does not establish that “the evidence was discovered after the Court’s order” or
that she “exercised diligence to obtain the evidence before entry of the order.” See Greyhound
Lines, Inc., 485 F.3d at 1036. Jacobs admits that she and her attorneys possessed the laptop
during the pendency of this case. Doc. 102 at p. 9-11. Jacobs had access to these emails before

4

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 5 of 16 PagelD #: 2102

the Court’s summary judgment order, but her attorneys decided against using the evidence from
her laptop. See id. Even if Jacobs and her attorneys had not previously opened the laptop or
reviewed the emails, Jacobs still cannot show that she “exercised diligence” to find die emails.
Jacobs possessed her own work laptop; she knew that she had access to these emails. See id.
Her attorney simply advised her against opening the laptop because “ownership was in question
and Johnson Storage would be responsible for submitting all documents and emails during
discovery.” Id. at p. 9. Jacobs did not make the laptop available to Johnson Storage during
discovery, nor did she produce any documents from it. Id. Her failure to provide the laptop and
its contents to Johnson Storage affected Johnson Storage’s ability to produce responsive
documents in discovery. Id. Jacobs’s physical possession of this evidence indicates that Jacobs
did not exercise due diligence to discover the evidence before summary judgment.
Jacobs also cannot show that she exercised diligence in obtaining this evidence from
Johnson Storage during discovery. On January 29, 2019, Johnson Storage served its answers and
objections to Jacobs’s First Set of Interrogatories and First Set of Requests for Production of
Documents. Doc. 100-B, Martin Decl. at f 5. In February 2019, Johnson Storage and Jacobs’s
former counsel conferred regarding Johnson Storage’s document production and the appropriate
search terms for document production from Jacobs’s email accounts. Martin Deck at f 6. The
parties did not come to an agreement on search terms before their mediation, or at any time after
mediation, when Jacobs secured new representation. Martin Deck at 7, 9. Johnson Storage did
not receive notice from Jacobs that she considered its discovery responses to be deficient, nor did
Jacobs file a motion to compel regarding Johnson Storage’s discovery responses. Martin Deck at
*f| 9-10. The Court finds that Jacobs did not exercise diligence to obtain the emails she alleges
were withheld by Johnson Storage.

5

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 6 of 16 PagelD #: 2103

Finally, even assuming the emails are material, Jacobs fails to establish that the emails
she discovered on the laptop are not merely cumulative of documents Johnson Storage
previously produced and that the evidence probably would have produced a different result. See
Greyhound Lines, Inc., 485 F.3d at 1036. At summary judgment, the Court considered
documentary evidence that Johnson Storage knew about Jacobs’s uncompensated overtime work.
Doc. 81. Jacobs asserts that her new evidence proves the same thing, but this makes her new
evidence merely cumulative. Doc. 95. Further, Jacobs’s evidence does not disturb the Court’s
findings on summary judgment that: 1) “Johnson Storage undisputedly offered legitimate, nonretaliatory reasons for Jacobs’s termination,” 2) there was “no evidence from which a reasonable
jury could determine Johnson Storage’s stated reasons for Jacobs’s termination were pretextual,”
3) “temporal proximity between the complaint and adverse action does not create a genuine issue
of material fact on the issue of causation,” 4) “Jacobs has failed to raise a genuine issue of
material fact as to whether Johnson Storage instructed her to violate the law by under-reporting
her hours,” and 5) “Jacobs cannot show the amount of unpaid overtime as a matter of just and
reasonable inference.” Doc. 81. The Court did not make any findings on whether Johnson
Storage “knew or should have known” that Jacobs worked unpaid overtime, as Jacobs had
already failed to present “sufficient evidence to show the amount and extent of that work as a
matter ofjust and reasonable inference.” Id. Jacobs’s new evidence is cumulative, and the Court
did not consider at summary judgment whether Johnson Storage knew about Jacobs’s unpaid
overtime, so the new evidence would not have produced a different result. See Greyhound Lines,
Inc., 485 F.3d at 1036. The Court finds that Jacobs’s evidence does not constitute “newly
discovered evidence” that might warrant relief from judgment under Rule 60(b)(1).
3.

Fraud or misconduct

6

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 7 of 16 PagelD #: 2104

Rule 60(b)(3) provides for relief from judgment in the case of “fraud... misrepresentation or
misconduct by an opposing party.” Fed. R. Civ. P. 60(b)(3). To prevail on a Rule 60(b)(3)
motion, “the movant must show, with clear and convincing evidence, that the opposing party
engaged in a fraud or misrepresentation that prevented the movant from fully and fairly
presenting its case.” Atkinson, 43 F.3d at 372-73 (citing Paige v. Sandbulte, 917 F.2d 1108,
1109 (8th Cir. 1990)). Jacobs alleges that Johnson Storage attempted to deceive the Court by
altering several documents it produced in discovery. She claims that “two documents have been
proven to be fraudulent and the third is suspiciously fraudulent.” Doc. 95 at p. 11-14. Jacobs
also alleges that Tina Healey committed peijuiy in her deposition when Healey stated that
Johnson Storage was not withholding any documents. Doc. 95 at p. 9-11. The Court finds that
Jacobs has not submitted “clear and convincing” evidence of fraud or misconduct, however.
Jacobs does not prove that Johnson Storage’s documents are fraudulent or that Healey committed
peijury in her deposition.
Jacobs presents three examples of alleged document fraud by Johnson Storage. First,
Jacobs presents two different versions of the same email which Johnson Storage produced in
discovery. Jacobs claims that after comparing the two emails “side by side,” the differences
between the two emails show that Johnson Storage deliberately manufactured evidence. But the
differences between the two emails are not a result of tampering: the second email is just a
forwarded version of the first email. Martin Decl. at f 13. In Tina Heaney’s deposition on
November 26,2019, Jacobs’s counsel asked Heaney about these two emails. Doc. 100-C,
Heaney Dep. 217:7-13. Heaney testified that the second version of the email was “a forward of
another shipment where Diana [Miller] is being asked to provide information and/or documents
that previously Katy had not.” Heaney Dep. 217:14-22. Jacobs’s counsel asked Heaney whether

7

Case: 4:18-cv-00024-SRC Doe.#: 105 Filed: 03/03/21 Page: 8 of 16 PageiD #: 2105

Diana Miller “created” the document, to which Heaney replied, “I understand where you’re
going with this. I get what you’re trying to do here. It didn’t happen that way.” Heaney Dep.
227:8-15. The Court finds that Jacobs presents no clear and convincing evidence of fraud with
regard to these emails.
Second, Jacobs presents Johnson Storage’s ADP time-card report. Jacobs recorded her
time by punching in and out through the ADP time-tracking program on her computer. Jacobs
claims that “the ADP report has been proven to be fraudulent as Jacobs was told to under-report
her hours.” Doc. 102 at p. 4. This is not evidence of fraud, as Jacobs has already admitted that
she did not enter her unreported hours on the timekeeping system. Doc. 81. Jacobs also
speculates that a mistake on the ADP report where the document indicates that May 11 and May
12, 2017 were both “Thursday” means that Johnson Storage manually altered the ADP report.
Doc. 95. She also points out that the ADP report Johnson Storage produced did not have the
ADP logo on it. Id. But Jacobs presents no evidence linking the incorrect date entry and the
lack of an ADP logo to her allegations that Johnson Storage tampered with the document. The
Court finds no clear and convincing evidence of fraud with regard to the ADP report.
Third, Jacobs claims that Johnson Storage “entered into evidence a deceptive
Organizational Chart... to cause confusion” and “significantly altered their organization chart
to conceal evidence.” Doc. 95 p. 15-16. Jacobs points to Tina Heaney’s admission in her
deposition that the organizational chart was not completely accurate. Id. But even though
Johnson Storage’s organizational chart contained factual inaccuracies, the Court will not assume
that Johnson Storage altered the chart to conceal evidence from the Court or to cause confusion.
Johnson Storage’s inaccurate organizational chart is not evidence of fraud. Additionally, this
evidence could not have affected the outcome of Jacobs’s case. Johnson Storage did not cite the

8

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 9 of 16 PagelD #: 2106

organizational chart in its Motion for Summary Judgment, and the Court did not rely upon it.
Doc. 61; Doc. 62; Ex. B, Martin Decl. at 14. The Court finds that the inaccuracies in the
organizational chart are not clear and convincing evidence of fraud, nor did they prevent Jacobs
from fully and fairly presenting her case at summary judgment.
Jacobs argues next that Healey committed perjury during her deposition because Healey
testified that Johnson Storage did not withhold any documents during discovery. Doc. 95 at p. 911; Healey Dep. 130:7-133:20. Jacobs claims that the emails she found on her work laptop show
that Johnson Storage withheld documents because Johnson Storage did not produce them. Id.
Jacobs attached several unattested emails in support of her motion. Id. In response, Johnson
Storage states in a sworn declaration that it complied with all of its discovery obligations.
Martin Decl. at f 5, 9-12. Jacobs has not provided clear and convincing evidence of perjury.
Jacobs implies that Johnson Storage committed misconduct during discovery by not
producing the emails that Jacobs found on her work laptop. Doc. 95 at p. 9-11. While discovery
misconduct can be a basis for relief under Rule 60(b)(3), the Court finds that Jacobs does not
present clear and convincing evidence of any misconduct. See Atkinson, 43 F.3d at 373 (8th Cir.
1994) (noncompliance with discovery requests “may under some circumstances be grounds for
vacating [a] judgment” under Rule 60(b)(3)). First, Jacobs does not attempt to demonstrate that
Johnson Storage’s answers and objections to document production were improper or that she
pursued the available discovery remedies before the entry of summary judgment. See, e.g.,
Dukes v. City ofMinneapolis, 339 Fed.Appx. 665, 668 (8th Cir. 2009) (Rule 60(b)(3) relief
unavailable for alleged failure to produce records in advance of summary judgment because
plaintiff “was obligated to pursue the release of those records prior to the grant of summary
judgment”); Miller v. Baker Implement Co., 439 F.3d 407, 410,414 (8th Cir. 2006) (holding no

9

Case: 4:18-cv-00024-SRC Doc. #: 105 Fiied: 03/03/21 Page: 10 of 16 PagelD #: 2107

basis for Rule 60(b)(3) relief when party “failed to avail himself of available discovery remedies
before the district court issued its order”); Floorgraphics Inc. v. News Am. Mktg. In-Store Servs.,
Inc., 434 Fed.Appx. 109,112 (3d Cir. 2011) (holding that when a receiving party objects to a
discovery request and the requesting party “failed to move to compel,” the court may conclude
that the requesting party “abandoned its request” and the claimed failure to produce responsive
documents does not constitute clear and convincing evidence of discovery misconduct under
Rule 60(b)(3)).
Second, Jacobs does not establish that Johnson Storage’s alleged withholding of
documents prevented her from fully and fairly litigating her case. Jacobs had possession of her
work laptop with these emails on it for the entirety of the case, so she had a “fair opportunity to
discover” the emails herself and use them to bolster her claims. Atkinson, 43 F.3d at 373
(finding that a defendant’s failure to disclose did not prevent the plaintiff from fully and fairly
litigating his claim because “[tjhis is not a case in which defendants withheld information that
they alone possessed. A copy of the letter was in [plaintiff’s] possession the entire time ...”).
And as explained above, Johnson Storage’s production of these emails would have made no
difference in the result of the case. See id.
Jacobs fails to present clear and convincing evidence that Johnson Storage engaged in
fraud or misconduct. Jacobs is not entitled to relief under Rule 60(b)(3). As Jacobs cannot show
“exceptional circumstances” justifying relief under Rule 60(b), the Court denies Jacobs’s Motion
for Relief of Judgment [95].
B.

Motion for Subpoena

Jacobs filed a Motion for Subpoena [98], which Court construes as a request to reopen
discovery to gather evidence in support of her Motion for Relief of Judgment [95]. District

10

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 11 of 16 PagelD #: 2108

courts may, in their discretion, allow a party to pursue post-judgment discovery when the moving
party can make a “prima facie demonstration of success on the merits” or, alternatively, a
“colorable claim.” See, e.g., Pearson v. First NHMortg. Corp., 200 F.3d 30, 35 (1st Cir. 1999);
Midwest Franchise Corp. v. Metromedia Restaurant Group, Inc., Ill F.R.D. 438,440 (N.D.
Iowa 1997). Unlike discovery under Federal Rule of Civil Procedure 26(b), “a request for
discovery for the purpose of attacking a final judgment involves considerations not present in
pursuing discovery in a pending action prior to a judgment. Primary among these considerations
is the public interest of the judiciary in protecting the finality ofjudgments.” H.K. Porter Co. v.
Goodyear Tire &Rubber Co., 536 F.2d 1115, 1118 (6th Cir. 1976). When the movant alleges
fraud under Rule 60(b)(3), courts should not reopen discovery without actual evidence of fraud:
“our strong interest in the finality ofjudgments leads courts to intervene in a search for evidence
of fraud only if there has been some showing that a fraud actually has occurred.” Duhaime v.
John HancockMut. Life Ins. Co., 183 F.3d 1, 7-8 (1st Cir. 1999).
Jacobs seeks a subpoena of documents from C T Corporation System, the custodian of
Johnson Storage’s ADP record-keeping system. Doc. 98. Jacobs claims in her Motion for a
Subpoena that Johnson Storage altered its ADP report before producing the document in
discovery. Id. Jacobs points to the incorrect date entry and the lack of an ADP logo on Johnson
Storage’s ADP report. Id. This evidence is not sufficient to show that Johnson Storage
committed fraud by altering its ADP report. The report’s entry of two consecutive days as
“Thursday” does not indicate that Johnson Storage manually changed the hours on the report,
and the missing ADP logo is meaningless without additional evidence on whether ADP reports
always contain the logo. Jacobs presents no evidence “showing that a fraud has actually
occurred,” that would enable the Court to reopen discovery and disturb an otherwise final

11

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 12 of 16 PagelD #: 2109

judgment. See Duhaime, 183 F.3d at 7-8. In sum, Jacobs does not present evidence creating a
colorable or prima facie claim for relief under Rule 60(b)(3). The Court denies her Motion for
Subpoena [98].
C.

Motion for Relief from Bill of Costs

Jacobs also filed a Motion for Relief from Johnson Storage’s Bill of Costs, presumably
under Rule 60(b). Doc. 103. In her motion, she raises the same allegations as those in her
Motion for Relief of Judgment [95] and seeks relief from all of Johnson Storage’s costs. Doc.
103. For the reasons set forth above, the Court will not grant relief under Rule 60(b). But Jacobs
also seeks relief from Johnson Storage’s costs because (1) the Court cannot grant costs to
Johnson Storage after she filed her notice of appeal under Federal Rule of Civil Procedure 58(e),
(2) Johnson Storage’s Bill of Costs contains errors and non-allowable costs, and (3) her former
attorney did not act in her best interest after the Court issued its summary judgment order. Doc.
103. The Court finds these arguments to be meritless and denies Jacobs’s motion [103],
The Court granted Johnson Storage’s motion for Bill of Costs on April 4,2020. Doc. 90.
Jacobs now seeks relief from these costs under Rule 60(b). Doc. 103. Courts view Rule 60(b)
motions with disfavor and grant them only in “exceptional circumstances.” See Rosebud Sioux
Tribe, 733 F.2d at 515; Atkinson, 43 F.3d at 371. And Federal Rule of Civil Procedure 54(d)(1)
provides that “costs.. .shall be allowed as a matter of course to the prevailing party unless the
court otherwise directs.” Recoverable costs include (1) fees of the clerk, (2) fees for transcripts,
(3) fees for printing and witnesses, (4) fees for copies of papers necessarily obtained for use in
the case, (5) docket fees, and (6) compensation of court-appointed experts and interpreters. 28
U.S.C. § 1920. Rule 54(d) creates a presumption favoring the award of costs to the prevailing
party. Computrol, Inc. v. Newtrend, 203 F.3d 1064, 1072 (8th Cir. 2000).

12

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 13 of 16 PageiD #: 2110

First, Jacobs argues that Rule 58(e) prevents a district court from awarding costs once a
party has filed a notice of appeal. Doc. 103 at p. 2, f 1. She claims that the Court should not
have awarded costs to Johnson Storage on April 6,2020, because she had already filed her notice
of appeal on March, 16, 2020. This argument is unpersuasive. Rule 58(e) allows a court to
extend the time for parties to appeal a judgment, pending the outcome of a motion for attorney’s
fees:
Ordinarily, the entry of judgment may not be delayed, nor the time for appeal
extended, in order to tax costs or award fees. But if a timely motion for attorney's
fees is made under Rule 54(d)(2), the court may act before a notice of appeal has
been filed and become effective to order that the motion have the same effect under
Federal Rule ofAppellate Procedure 4 (a)(4) as a timely motion under Rule 59.
Fed. R. Civ. P. 58(e) (emphasis added). Under Federal Rule of Appellate Procedure 4(a)(4),
certain motions may extend the deadline to file a notice of appeal. Jacobs’s filing her notice of
appeal had no bearing on the Court’s ability to award costs under Rule 54(d)(1). See Blakley v.
Schlumberger Technology Corp., 648 F.3d 921, 930 (8th Cir. 2011) (district court may award
costs after a party has filed a notice of appeal). The Court did not seek to extend Jacobs’s time
for appeal under Rule 58(e), therefore Rule 58(e) does not apply in this situation.
Second, Jacobs argues that Defendant’s Bill of Costs contains errors and non-allowable
costs, including unnecessary fees for service of subpoena, fees for deposition transcripts, and
fees for obtaining tax records. Doc. 103 at p. 2, f 2.

Jacobs raised largely the same arguments

in her Memorandum in Response to Johnson Storage’s Bill of Costs. Doc. 85. The Court
already addressed these arguments in its Memorandum and Order granting costs to Johnson
Storage. Doc. 90. The Court found in its Memorandum and Order that fees for service of
subpoena, deposition transcripts, and obtaining tax records were necessary for litigation of the
case and that Johnson Storage reasonably incurred these costs. Doc. 90. Jacobs does not present

13

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 14 of 16 PagelD #: 2111

any additional evidence to show “exceptional circumstances,” so the Court will not grant her
relief from these costs.
Third, Jacobs argues that she should obtain relief due to excusable neglect by her former
attorney, Bridget Halquist, because Halquist did not act in her best interest after the Court issued
its summary judgment order. Doc. 103 at p. 4, f 3. Jacobs requests relief from Johnson
Storage’s Bill of Costs because Halquist delayed filing her notice of appeal by 10 days, neglected
to show Jacobs the memorandum in response to Johnson Storage’s Bill of Costs [85] before
filing it, and defied Jacobs’s instructions by stipulating to Jacobs’s responsibility for Johnson
Storage’s costs. As discussed above, excusable neglect under Rule 60(b)(1) deals with situations
where an attorney accidentally misses a filing deadline or fails to comply with a court rule, not
professional incompetence or carelessness. Sutherland, 710 F.2d at 476-77; Noah, 408 F.3d at
1045. Jacobs does not allege any conduct by Halquist that the Court can excuse under Rule
60(b)(1), nor does Halquist’s conduct create “exceptional circumstances” justifying relief from
these costs.
The Court also observes that Jacobs’s filing of her notice of appeal did not implicate
Johnson Storage’s ability to recover costs under Rule 54(d)(1). Had Halquist filed the notice of
appeal immediately after the Court’s summary judgment order, Johnson Storage could still have
recovered its costs, so Halquist’s alleged delay did not harm Jacobs. See Fed. R. Civ. P.
54(d)(1). Jacobs also admits that on March 13, 2020, when Halquist offered to file a response to
Johnson Storage’s Motion for Bill of Costs, Jacobs replied: “I do not care what you do just as
long as your response does not indicate that I am in any way responsible for these charges.”
Doc. 103 at p. 5, ^ 3. Halquist filed Jacobs’s response memorandum that same day. Doc. 85.
The evidence does not support Jacobs’s claim that Halquist acted against her interests by not

14

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 15 of 16 Page!D #: 2112

showing Jacobs the memorandum before filing it. And Halquist did not stipulate to Jacobs’s
responsibility for Johnson Storage’s costs in the memorandum. Doc. 85. The memorandum asks
the Court to deny Johnson Storage’s Bill of Costs and claims that Johnson Storage did not
present sufficient evidence that the costs were necessarily incurred. Doc. 85. The Court
awarded costs to Johnson Storage because it disagreed with Jacobs’s assessment. Doc. 90.
Thus, the court record and Jacobs’s own admissions belie her claim that Halquist did not act in
her best interest after the Court’s summary judgment order.

m.

Conclusion
Jacobs fails to present evidence of “exceptional circumstances” that would justify

granting her relief under Rule 60(b). Accordingly, the Court denies Jacobs’s Motion for Relief
of Judgment [95]. The Court also denies Jacobs’s Motion for a Subpoena [98] and Motion for
Relief from Defendant’s Bill of Costs [103]. The Court denies Jacobs’s Motion for Indicative
Ruling [95] as moot; Jacobs’s case is no longer on appeal, so the Court has jurisdiction to
consider Jacobs’s motion for relief of judgment. See Fed. R. Civ. P. 62.1.
Jacobs filed a Motion for Order to Enter Evidence with the Eighth Circuit on July 7,
2020, but the Circuit Clerk transferred the motion to the District Court. The Court construes
Jacobs’s motion [99] as an additional motion for relief from judgment under Rule 60(b).
Because the motion raises the very same issues as her Motion for Relief from Judgment [95], the
Court denies the motion [99] for the same reasons.
Jacobs attempted to file a Motion to Vacate Order Denying Rehearing with the Eighth
Circuit on January 4,2021, but the Circuit Clerk dismissed the motion as successive under
Eighth Circuit Local Rule 40A(c). Jacobs filed the same motion with the District Court, which
docketed it as a pending motion before the Court. Doc. 96. As the Eighth Circuit has already

15

Case: 4:18-cv-00024-SRC Doc. #: 105 Filed: 03/03/21 Page: 16 of 16 PagelD #: 2113

disposed of the motion, the Court directs the Clerk of Court to terminate the motion [96] on the
docket.
Finally, the Court observes that Jacobs has filed four motions with the Court in the short
time since her unsuccessful appeal and petition for rehearing. Doc. 95, 96, 98, 103. The Court
acknowledges Jacobs’s pro se status but cautions Jacobs against filing any additional post­
judgment motions in an attempt to advance previously-filed motions or claims for relief. Should
Jacobs continue litigating this closed matter, the Court may interpret her actions as an attempt to
abuse the judicial process and waste judicial resources.

So Ordered this 3rd day of March, 2021.

^

C2-

STEPHEN R. CLARK
UNITED STATES DISTRICT JUDGE

16

Case: 4:18-cv-00024~SRC Doc. #: 92 Filed: 11/16/20 Page: 1 of 1 PagelD #: 1907

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1545
Katherine Jacobs
Plaintiff - Appellant
v.
Johnson Storage & Moving Co. Holdings, LLC
Defendant - Appellee
Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:18-CV-00024-SRC)
JUDGMENT
Before ERICKSON, WOLLMAN, and STRAS, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
November 12,2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1545

Page: 1

Date Filed: 11/12/2020 Entry ID: 4974834

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1545
Katherine Jacobs
Appellant
v.
Johnson Storage & Moving Co. Holdings, LLC
Appellee

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:18-CV-00024-SRC)
ORDER
The petition for rehearing by the panel is denied.
December 18,2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1545

Page: 1

Date Filed: 12/18/2020 Entry ID: 4986380

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1545
Katherine Jacobs
Appellant
v.
Johnson Storage & Moving Co. Holdings, LLC
Appellee

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:18-cv-00024-SRC)
ORDER
Katherine Jacobs’s motion for relief ofjudgment and request to supplement her appeal
has been construed as a motion to reopen the appeal and to supplement the appeal. The court has
considered the requests and the motion to reopen and to supplement the appeal is denied.

March 19, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

E.
Appellate Case: 20-1545

Page: 1

Date Filed: 03/19/2021 Entry ID: 5016699

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
Case No. 20-1545
KATHERINE JACOBS,
PlaintifEAppellant/Pro Se,
v.
JOHNSON STORAGE & MOVING CO. HOLDINGS, LLC
Defendant/Appellee.
DEFENDANT JOHNSON STORAGE & MOVING CO. WOT TUNICS n r ’g
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 26.1 of the Federal Rules of Appellate Procedure and
Eighth Circuit Local Rule 26.1 A, Defendant Johnson Storage & Moving Co.
Holdings, LLC files its Corporate Disclosure Statement as follows:
1.

Johnson Storage & Moving Co. Holdings, LLC, is a limited liability

corporation and has no parent corporation.
2.

No publicly held corporation owns more than 10% of Johnson Storage

& Moving Co. Holdings, LLC.

F.
Appellate Case: 20-1545

Page: 1

Date riled: 05/08/2020 Entry ID: 4911178

Respectfully submitted,

/s/Patricia J. Martin
Patricia J. Martin # 57420 MO
Jennifer Chierek Znosko # 56842 MO
Lillian T. Manning # 68432 MO
LITILER MENDELSON, P.C.
600 Washington Avenue, Suite 900
St. Louis, MO 63101
Telephone: 314.659.2000
Facsimile: 314.659.2099
pmartin@litter.com
jznosko@littler.com
lmanning@littler.com
ATTORNEYS FOR APPELLEE JOHNSON STORAGE & MOVING
CO. HOLDINGS, LLC
CERTIFICATE OF SERVICE
The undersigned hereby certifies on the 8th day of May, 2020, I
electronically filed the foregoing document with the Clerk of the Court using
CM/ECF system. I also e-mailed the foregoing document to: Katherine Jacobs,
Plaintiff/Appellant/Pro Se at jacobsfamily40@gmail .com.
/s/ Patricia J. Martin
4828-6132-4220.1 084678.1003

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1545
Katherine Jacobs
Appellant
v.
Johnson Storage & Moving Co. Holdings, LLC
Appellee

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:18-CV-00024-SRC)
ORDER
Appellant’s motion to stay/recall the mandate is denied.
January 20, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gaiis

£00*12

6.

Si

Additional material
from this filing is
available in the
Clerk's Office.

